Case: 2:18-cv-00575-ALM-KAJ Doc #: 29 Filed: 12/03/19 Page: 1 of 2 PAGEID #: 110
(8

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
JIPING RIZK,
Case No. 2:18-cv-00575
Plaintiff,

JUDGE ALGENON L. MARBLEY
v.
Magistrate Judge Jolson
DEPARTMENT OF DFAS,
Defendant.
ORDER
I. INTRODUCTION
This matter is before the Court on Plaintiff Jiping Rizk’s Motion to Proceed on Appeal In
Forma Pauperis. (Doc. 26.) For the reasons that follow, the Court CERTIFIES, pursuant to
Federal Rule of Appellate Procedure 24(a)(2) and 28 U.S.C. § 1915(a)(3), that an appeal of the
above-captioned action cannot be taken in good faith. Accordingly, the Court DENIES Plaintiff s
Motion [#26].
v

j*

II. ANALYSIS
Federal Rule of Appellate Procedure 24(a)(2) provides that if a district court denies a
motion to proceed on appeal in forma pauperis, then “it must state its reasons in writing.” Fed. R.
App. P. 24(a)(2). 28 U.S.C. § 1915(a)(3), in turn, states that “[a]n appeal may not be taken in
forma pauperis if the trial court certifies that it is not taken in good faith.” 28 U.S.C. § 1915(a)(3).
An appeal is not taken in good faith “if the issue presented is frivolous.” Smith v. ABN AMRO
Mortg. Grp., Inc., 2008 WL 11351578, at *2 (S.D. Ohio Dec. 11, 2008).

1

APfflHPlX A

Case: 2:18-cv-00575-ALM-KAJ Doc #: 29 Filed: 12/03/19 Page: 2 of 2 PAGEID #: 111

Plaintiff initiated this action against her former employer -- Defendant United States
Department of Defense, Finance, and Accounting Service — after Defendant revoked her security
clearance and terminated her employment. The Court, however, dismissed Plaintiffs Complaint,
finding that executive decisions regarding security clearances are generally immune from judicial
scrutiny. (See Doc. 22 at 2-3.) Because Plaintiff did not allege that her constitutional rights were
violated or that Defendant failed to follow its own regulations in the process of revoking her
security clearance, the Court held that Plaintiff failed to state a claim upon which relief could be
granted. See Tenenbaum v. Caldera, 45 F. App’x 416, 418 (6th Cir. 2002) (“Executive decisions
regarding security clearance are not completely immune from scrutiny. Judicial review may be
appropriate, for example, where the plaintiff alleges a violation of constitutional rights .... Courts
may also be permitted to hear cases in which an agency violates its own regulations in the process
of revoking a security clearance.”). The Court concludes that any appeal of this decision would
be frivolous, and thus, not taken in good faith.
III. CONCLUSION
For the reasons stated herein, the Court CERTIFIES that any appeal of the abovecaptioned action would not be taken in good faith. Accordingly, the Court DENIES Plaintiffs
Motion to Proceed on Appeal In Forma Pauperis [#26].
IT IS SO ORDERED.
Is/ Algenon L. Marblev
ALGENON L. MARBLEY
CHIEF UNITED STATES DISTRICT JUDGE
DATED: December 3, 2019

2

No. 19-4110

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JIPING RIZK,
Plaintiff-Appellant,
v.
DEFENSE FINANCE AND ACCOUNTING
SERVICE,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)
)
)

Apr 27, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: GILMAN, Circuit Judge.

Jiping Rizk, proceeding pro se, moves the court to grant her permission to proceed in forma
pauperis in her appeal from a district court’s judgment dismissing her civil complaint filed under
the Civil Service Reform Act of 1978. See Fed. R. App. P. 24(a)(5).
In 2018, Rizk, a naturalized United States citizen of Chinese nationality, sued the
Department of Defense’s Finance and Accounting Service (“DFAS”), claiming that DFAS had
improperly terminated her employment. She stated that her security clearance was revoked five
years after she failed to note in an employment-related security-clearance application that she had
visited China, and that her employment was terminated as a result. Rizk argued that there was no
justifiable reason to revoke her security clearance and that DFAS could not properly fire her
without an advanced showing of cause. The defendant moved to dismiss the complaint, arguing
that Rizk: (1) had not exhausted her administrative remedies; and (2) failed to state a claim upon
which relief could be granted because decisions concerning security clearances are generally
beyond judicial scrutiny, and Rizk did not allege facts bringing her case within one of two
exceptions that would allow review of her claim.

WLHD1X

&

No. 19-4110
-2The district court granted the defendant’s motion, concluding that Rizk failed to state a
claim upon which relief could be granted. Rizk appealed and moves to proceed in forma pauperis.
An appeal in this case would be frivolous because any challenge to the district court’s
decision lacks an arguable basis in law. See Neitzke v. Williams, 490 U.S. 319, 325 (1989);
Callihan v. Schneider, 178 F.3d 800, 804 (6th Cir. 1999).

As the district court properly

determined, executive decisions concerning an individual’s security clearance are generally
immune from judicial scrutiny, see Dep’t ofNavy v. Egan, 484 U.S. 518, 529-30 (1988); Oryszak
v. Sullivan, 576JF.3d 522, 526 (D.C. Cir. 2009); Tenenbaum v. Caldera, 45 F. App’x 416, 418 (6th
Cir. 2002), and the exceptions that this court has recognized do not apply here, see Tenenbaum, 45
F. App’x at 418 (citing Webster v. Doe, 486 U.S. 592, 603-04 (1988); Service v. Dulles, 354 U.S.
363,382 (1957)).
Accordingly, the motion to proceed in forma pauperis is DENIED. Unless Rizk pays the
$505 filing fee to the district court within thirty days of the entry of this order, this appeal will be
dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case No. 19-4110
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
JIPING RIZK
Plaintiff - Appellant
v.
DEFENSE FINANCE AND ACCOUNTING SERVICE
Defendant - Appellee

Appellant having previously been advised that failure to satisfy certain specified
obligations would result in dismissal of the case for want of prosecution and it appearing that the
appellant has failed to satisfy the following obligation(s):
The proper fee was not paid by May 27, 2020.
It is therefore ORDERED that this cause be, and it hereby is, dismissed for want of
prosecution.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk
Issued; June 03, 2020

B

i to
v„

December 12,2012
To whom it may concern::
I remember that Jiping asked me one question which says: Which Foreign country you
have visited and I told her that you come from China and you do not need to write down
China but you must write down other countries which you visited. I know that she travel
with American passport and every visits she had is bang displayed on the American
passport, no one can make any fraud or fool to an American passport.
HEATHS} A. FROST
Notary Public, Slate of Ohio
My Commission Expires
January 28,2018

Sincerely
‘isev Fr. Joven V Maljmyaon
Diocese of Toledo
Hispanic Ministry Office
1933 Spielbush Avenue
Toledo, Ohio 43624
Email: jmalanyaon@yahoo.com
Phone: 419-705-6302
419-381-0709

APPE-HD1X *c

©

July 11, 2012

To whom it may concern,
J.pmg Rzik has been an employee in my organization under my direction since F
ebruary 1, 2010. Ms.

witnessed any actions or behaviors that I would deem suspicious in

I have not
nature.

Sincerely,

Theresa Roach, Director FMS
DFAS Columbus

fwimm cm

(4-

Nofanj T\uoU c

*

o

*

litebl

mik

SHANNON TINNEY
Nofesy Public, State of Ohio
My Commission Expires
03-23-2016

AvPPBNDlX D

Print

Page 1 of 1

Subject FW: Rewards & Recognition Reward
From:

RIZK, J1PING CIV DFAS (JIPINaRIZK@DFAS.MIL)

To:

jipingrizk@yahoo.com;.

Date:

Thursday, September 23, 2010 12:38 PM

---- Original Message---From; Rewards and Recognition [mailto:reward.recognition@dfas.mil]
Sent; Monday, August 16,2010 3:46 PM
To: RIZK, JIPING CIV DFAS
Subject: Rewards & Recognition Reward
You have received a reward via the DFAS Rewards & Recognition Program.
From: THERESA A ROACH
For: Jiping, thank you for your hard work, exceptional work etKitFand
patience while transitioning workload. I appreciate youand amfgla”d to
have'you in the branch!’
You may view your Rewards and Recognition account information at:
http://reward s .dfas. mi 1/
This message delivered by the Defense Finance and Accounting Service.

/NPPEHDIX E
httn7/nfi-m<?6 mail vahnn mm/nen/laiinr.h? rand=ftnvraa0d64n3n

8/28/2.013

September 17,2012

To Whom It May Concern:
As Aping's acting supervisor, there have been numerous occasions when Jiping had to request her
accesses for systems that pertained to her working NUlOs. The requirement Is that you have to be
active in an account for at least 30 days or else they wiitibe suspended. Jiping had to re-submit new
Access Request forms to regain access.
if you have any questions or need additional lnformatioji,piease let me know.

Thank you,

Lisa K. Wingfield
(614) 701-3305- Office
(614) 975-4517 - Ceil

hannim

Mofan^ Public

rfcsssg*!

WdW

APPEHPIX f

SHANNON TINNEY

| Notary Public, Stats of Ohio
My Commission Ejqjirss
03-20-2016

Roberta A. Wetherbee
DeCA A/P Maintenance Supervisor
DFAS CC Bldg 21 Cube 5B 222
EXT: 614.701.3803 DSN: 791
roberta.a.wetherbee@dfas.mil

July, 31.2012

SUBJECT: JipingRizk
To Whom It May Concern:
I have known Jiping since 2005. I was her supervisor for a short period
but I remember her enthusiasm as she was a new hire to DFAS. This was during
the BRAC for ARMY St. Louis to Columbus.
Jiping was a conscious, independent, and skilled worker. She displayed
great ethical habits by being a positive roll model regarding work regulations,
policies and procedures. She was honest, dependable, and reliable in her daily
interactions with internal and external customers. Her ability to be mature and
dependable made her a key player in the team.
Jiping was trustworthy regarding internal review recommendations that
would deem sensitive information. She practiced vigilance in her daily routine
access to sensitive system access, Privacy Act information; Information
Technology (IT), and provide services that demand public trust and confidence.
These practices were followed internally, externally as some of the work
extended into other Defense agencies and customers.
Jiping complied with all security mandatory training and information and
technology annual requirements.
I would be pleased to have her on my team again.
Respectfully,
/s/
Roberta A. Wetherbee

5

EDUARDO and THELMA SHEA

Home:419-381-9709
Cell: 419-704-5276

2154 Eastedge Drive
Toledo. Ohio 43614___________

July 30,2012

TO WHOM IT MAY CONCERN:
RE: Jiping Rizk
This is to inform you that, to my personal knowledge, the above person is of excellent moral
character. Academically, Ms. Rizk finished her collegiate studies at the University of Toledo
(Ohio) which she has successfully applied to her present employment with remarkable results.
It is with great pride that we could claim her for an acquaintance.

RiuMo V. Shea, M.D?

H

:? .
t».i --- .—

CIVILIAN PERFORMANCE RATING
For use of this form. SEE DFAS 1426 3-R

PART l - ADMIN STRATIVE DATA

1- NAME (Last, Fast, Ml)

2. NAME AND LOCATION OF EMPLOYING OFFICE

DEFENSE FINANCE AND ACCOUNTING SERVICE
COLUMBUS CENTER

Rfzk, Jiping NMI E00024538
3. POSITION TITLE AND NUMBER, PAY PLAN, SERIES AND GRADE LEVEL

Accountant GS-510-07 ND512

A. PERIOD COVERED

5. UNDER SUPERVISON OF
CURRENT SUPERVISOR

FROM: May 1,2009

6. TYPE OF RATING

E3 I ANNUAL
| SPECIAL

Entire Period
TO: April 30.2010

7. JOB ELEMENT
A

CE
b

DFAS-JAK ARMY FMS Branch
3990 E. BROAD STREET
COLUMBUS, OHIO 43218

PART II - PERFORMANCE EVALUATION
RATING
JOB ELEMENT
C
a.

1. NULO Resolution/Root Cause
Analysis

Y

M

2. Prepare Accounting Documents

Y

E

3. Customer Service

Y

E

4. Teamwork

N

E

5. Growth and Learning

N

E

CE
b

8. ELEMENT RATING EXPLANATION

~

RATING
C

------------ ----------------

1.

Jiping performs research resulting in accounting adjustments, clearing 15-18 NULOs each month. She has strong
analysis skills and can effectively determined the root cause of NULOs assigned to her. She makes every effort to
share her findings with TACOM ARMY customers. Jiping researches contracts to ensure all funding modifications
have been processed to dear the out of balance issue. Jiping’s source document review and accurate analysis to
reconstruct the history of commitments, obligations and payments aid in clearing NULOs. She is competent usinq
SDW, MOCAS, CAPS, ODS and ORLV, EDA and EDM to research FMS out of balance conditions.

2.

Jiping is detail oriented as evidenced by her accounting adjustment packages. Her JVs, 1080s and 1081s are
correct, dear and complete to exceed this element of preparing accounting documents. Jiping works 6 Army
commands to clear out of balances for the 112 and 218 trial balance. She determines the corrective action and
prepares accounting adjustment vouchers to process and clear NULOs. Jiping is a fast study and her college
education combined with FMS experience provide a strong basis for her to excel at preparing accurate adjustment
document packages with little oversight and no errors to resolve FMS account issues quickly.

3.

Jiping builds customer confidence by conducting thorough research and fast turnaround on corrective actions.
She excels at customer requests for research and corrective actions, which include investigating the root cause of
the negative balance, comparing funds in various systems to determine if the NULO was a duplicate payment or
shortage of obligation funds to correct the NULO. Jiping methodically pulls source accounting documents to
review the recon request and makes suggestions to share with command customers. Jiping’s excellent customer
service skills have generated customer appreciation messages from ARMY customers such as Julie Bunch for
clearing NULOs before reaching 120 days, often within days of the NULO appearing. She seeks to satisfy
customers and co-workers by doing the very best job she can. Jiping received notes of appreciation from TACOM
Warren Command who appreciated Jiping's fast action to clear NULOs. Her positive attitude and willingness to
accept new skills for FMS accounting makes her exceed the element for excellent customer service.
COPY:

p_j EMPLOYEE

|

| SUPERVISOR

f

I OPF/EPF
RECORD

APPEMPIX

I

i

| OTHER

‘i O —\f-

8.

PART II - PERFORMANCE EVALUATION (CONTINUED)
ELEMENT RATING EXPLANATION (Continued)

4. Jiping is a dependable, conscientious employee and adheres to all DOD FMR Regulations for Trust Fund Account
maintenance. She clearly communicates to customers her findings and foliows-up to ensure the customer is
satisfied with action taken to clear issue. Jiping embraces every aspect of her job, including learning the process
to clear tab and edit errors on a permanent basis. During this rating period, Jiping worked NULO resolution for 8
months and then the Treasury Reports, usually performed by a GS-9. With minimal training, she worked with a
variety of internal and external process partners to learn the job and assist others. Jiping lends her help to all co­
workers and excels at managing her work assignments. She understands the importance of her job and
sacrafices weekends to meet reporting deadlines. Jiping has a positive attitude and friendly demeanor that
makes her an asset to our team.

PART III - INDIVIDUAL DEVELOPMENT PLAN
PART IV - COMMENTS
10.

Face to Face discussions were held quarterly with this employee 8/14/09,10/27/09 and 2/12/10.

PART V - PERFORMANCE AWARDS
II.
CASH AWARDS
f~X~] APPROVED
|

RECOMMENDING OFFICIAL

AMOUNT

| DISAPPROVED

$ 550.00

*

SIGNATURE & DATE

ilfajurUJlUaelAPPROVING OFFICIAL

SIGNATURE & DATE

PART VI - SUMMARY RATING LEVEL
|

| EXCEPTIONAL

| X | HIGHLY SUCCESSFUL

13. SUPERVISOR NAME AND TITLE

Regina S Zaglanis
Chief, Army Branch JAK

|

| FULLY
SUCCESSFUL

|'| MINIMALLY
ACCEPTABLE/
SATISFACTORY

PART VII-SUMMARY RATING LEVEL .
b. SIGNATURE

|

| UNACCEPTABLE/
UNSATISFACTORY

c.DATE.

(t/2? /•

14. REVIEWING OFFICIAL (OPTIONAL) NAME & TITLE

b. SIGNATURE

c. DATE

15. APPROVING OFFICIAL NAME & TITLE

b. SIGNATURE

c. DATE

Theresa Roach
Director, FMS
16. EMPLOYEE NAME

Jiping Rizk
Accountant

6>(>§f/o
b. SIGNATURE

c. DATE

R.'tA

* Employee signaluylndicatgs that discussion, not necessarily agreement, has occurred.

<$ A? 9/«*>/»

%

*
'*4

4
■'

J.

I-

5. Jiping seeks out Army training classes to enhance her current skills. Jiping has a current IDP
on file and completes all mandatory classes. She participates in team meetings, functions
and enjoys interaction with all team members. She is mentored through the DFAS Mentoring
program.
;

DFAS FORM 430-2
which is obsolete.

Replaces previous edition

\

7

/
/

No

Yes

YOUR MILITARY HISTORY
0

Have you served in the United States military?

Q

Have you served in the United States Merchant Marine?

X
X

List all of your military service below, including service in Reserve, National Guard, and U.S. Merchant Marine. Start with the most recent period of service (#1) and work
backward. If you had a break in service, each separate period should be listed. ’
•Code. Use one of the codes listed below to identify your branch of service:
1 - Air Force

2 - Army

3 - Navy

4 - Marine Corps

5 - Coast Guard

6 - Merchant Marine

"7 - National Guard

•O/E. Mark "O’ block for Officer or "E" block for Enlisted.
•Status. "X" the appropriate block for the status of your service during the time that you served. If your service was in the National Guard, do not use
an "X": use the two-letter code for the state to mark the block.
•Country. If your servioe was with other than the U.S. Armed Forces, identify the country for which you served.
Month/Year

Month/Year

O

Service/Certrficate No.

Code

E
Active

Status
Inactive
Active
Reserve
Reserve

Country

National
Guard
(State)

To
To
No

Yes

^ YOUR SELECTIVE SERVICE RECORD

x

Q

Are you a male bom after December 31,1959? If "No," go to 18. If "Yes," go to b.

Q

Have you registered with the Selective Service System? If "Yes," provide your registration number. If "No," show the reason for your legal
exemption below.
Legal Exemption Explanation

Registration Number

Yes

YOUR INVESTIGATIONS RECORD
0

Has the United States Government ever investigated your background and/or granted you a security clearance? If "Yes,” use the codes that
follow to provide the requested.information below. If "Yes," but you cant recall the investigating agency and/or the security clearance
received, enter "Other' agency cod#,or clearance code, as appropriate, and "Don’t know" or "Don't recall" under the "Other Agency"
heading, below. If your response teTNo/oryou dont know or cant recall if you were investigated and cleared, check the "No* box.

Codes for Investigating Agency
1 - Defense Department
2 - State Department
3 - Office of Personnel Management
Agency
Code

Month/Year

6

08/2002

0

Clearance
Code

Other Agency

department of Justice

Month/Year

Agency
code

6-L
7 - Other
Clearance
Code

Other Agency

7

To your knowledge, have you ever had a clearance or access authorization denied, suspended, or revoked, or have you ever been debarred
from government employment? If "Yes,* give date of action and agency. Note: An administrative downgrade or termination of a security
clearance is not a revocation.
Department or Agency Taking Action

Month/Year

0

x

Codes for Security Clearance Received
3 - Top Secret
0 - Not Required
4 - Sensitive Compartmented Information
1 - Confidential
2 - Secret
5-Q

4-FBI
5 - Treasury Department
6 - Other (Specify)

No

Yes

No

X

Department or Agency Taking Action

Month/Year

FOREIGN COUNTRIES YOU HAVE VISITED
List foreign countries you have visited, except on travel under official Government orders, beginning with the most current (#1) and working back 7 years. (Travel as a
dependent or contractor must be listed.)
•Use one of these codes to indicate the purpose of your visit: 1-Business

2-Pleasure

3-Education

4-Other

•Indude short trips to Canada or Mexico. If you have lived near a border and have made short (one day or less) trips to the neighboring country, you do
not need to list each trip. Instead, provide the time period, the code, the country, and a note ("Many Short Trips").
•Do not repeat travel covered in items 9,10, or 11.
Month/Year

Month/Year

„ 03/2005 To 03/2005
#2

03/2005

To

03/2005

Code

Month/Year

Country

France
United Kingdom

Month/Year

#5

To

#6

To

#3

To

#7

To

#4

To

#8

To

Enter your Social Security Number before going to the next page
Page 6

APPENDIX J'

Code

Country

281-96-3795

